U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report



       Farm Service Agency
   Flood Compensation Program




               Report No.
               03099-38-KC
               December 2000
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL
                                     Washington, DC 20250




DATE:        December 7, 2000

REPLY TO
ATTN OF:     03099-38-KC

SUBJECT:     Flood Compensation Program

TO:          Keith Kelly
             Administrator
             Farm Service Agency

ATTN:        T. Mike McCann
             Director
             Operations Review and Analysis Staff


This report presents the results of our audit of the Farm Service Agency’s 1998 Flood
Compensation Program. Your October 24, 2000, response to the draft report is included
in exhibit H with excerpts and the Office of Inspector General’s position incorporated into
the relevant sections of the report.

We do not agree with the management decisions for Recommendations Nos. 1 and 2.
Information needed to reach management decision is presented in the OIG Position
section after each recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementation
for those recommendations for which a management decision has not yet been reached.
Please note that the regulation requires a management decision to be reached on all
findings and recommendations within a maximum of 6 months from report issuance, and
final action to be taken within 1 year of each management decision.

We appreciate the courtesies and cooperation extended to us by members of your staff
during the audit.

/s/

JAMES R. EBBITT
Assistant Inspector General
 for Audit
                        EXECUTIVE SUMMARY
                           FARM SERVICE AGENCY
                       FLOOD COMPENSATION PROGRAM

                              AUDIT NO. 03099-38-KC


                                      The objectives of our review were to determine
     RESULTS IN BRIEF                 if the Farm Service Agency (FSA) established
                                      adequate controls to implement and administer
                                      the 1999 Flood Compensation Program (FCP)
         and to provide program officials with an independent assessment of the
         program. The audit covered agency management controls and activities
         during program implementation.         To accomplish our objectives, we
         judgmentally selected and visited 22 of the 100 counties that participated in
         the program, including 16 of 39 participating county offices in North Dakota
         and 6 of 50 participating county offices in South Dakota (see exhibit D). We
         examined more than 100 program applications and related farm records, as
         well as documentation submitted by county committees to qualify their
         counties for participation.

            Our audit disclosed that while the FCP reached producers in the areas
            publicized by the agency as needing relief from flood-related losses,
            program payments were not based on long-term losses and benefits were
            not always distributed in areas where producers suffered multi-year losses.
            Producers in the areas publicized by the FSA as in need of the FCP
            received only about 35 percent of the disbursed program funds. This
            occurred because the FSA used two-stage eligibility criteria that allowed
            farmers and ranchers who had incurred losses in only 1998 to participate.
            Producers who suffered long-term losses were compensated the same as
            producers who suffered losses during only 1 year. In addition, the agency did
            not establish effective controls to ensure that only eligible producers
            participated in the program and that those who did participate were only
            compensated for actual losses. Improvements in these areas would help
            protect the program against waste and abuse.

                                    We recommended that FSA improve the design
 KEY RECOMMENDATIONS                of future multi-year emergency disaster
                                    programs, such as the FCP, by establishing
                                    eligibility criteria and benefit determinations that
        more equitably reflect the severity and duration of losses for affected
        counties and producers, as well as by applying more effective controls to
        avoid the payment of program funds for overstated losses and false claims.
        We also recommended that the agency develop more effective loss
        verification and compliance testing procedures for future multi-year disaster
        programs.


USDA/OIG-A/03099-38-KC                                                            Page i
                                    FSA’s October 24, 2000, written reply to the
    AGENCY RESPONSE                 audit indicates that national program officials do
                                    not concur with our audit findings and
                                    recommendations. They believe that the FCP
        was delivered in accordance with the intent of Congress and affected
        producers and that adequate controls were in place for the program. The
        reply also describes the method used by the agency to develop the program
        and explains the agency’s rationale for their opinion that no corrective action
        is necessary. FSA’s written reply to our audit is included as exhibit H of this
        report.

                                     FSA’s October 24, 2000, reply does not
        OIG POSITION                 respond to OIG’s recommendations in the
                                     official draft report. The reply contains the same
                                     comments that were provided to OIG earlier in a
          memorandum dated August 3, 2000. OIG had already considered these
          comments during its preparation of the official draft report.

           FSA responded by stating it still believes that FCP was delivered in
           accordance with the intent of Congress. However, FSA funded FCP out of
           funds intended for multi-year losses. According to the conference committee
           notes, this funding was provided to make available assistance to producers
           who have incurred multi-year losses in the period to include 1998 and
           preceding crop years. Therefore, we believe that FSA’s two-stage eligibility
           criteria did not ensure that FCP assistance was effectively and maximally
           distributed to producers with major multi-year losses regardless of the
           counties they were located. As a part of our audit, we tested critical program
           administration functions and identified areas where recommended
           improvements could enhance the effectiveness of future flood compensation
           programs. These areas included the need for improved eligibility criteria for
           counties and producers and increased verification of claimed losses, as well
           as the need for more reliable compliance test methodologies. To reach
           management decision for the audit, we request that FSA program officials
           implement our recommendations or provide alternative actions to prevent
           recurrence of the conditions reported.




USDA/OIG-A/03099-38-KC                                                           Page ii
                                            TABLE OF CONTENTS

EXECUTIVE SUMMARY............................................................................................................i
   RESULTS IN BRIEF ...............................................................................................................i
   KEY RECOMMENDATIONS .................................................................................................i
   AGENCY RESPONSE...........................................................................................................ii
   OIG POSITION.........................................................................................................................ii
TABLE OF CONTENTS ...........................................................................................................iii
INTRODUCTION.........................................................................................................................1
   BACKGROUND......................................................................................................................1
   OBJECTIVES..........................................................................................................................1
   SCOPE .....................................................................................................................................1
   METHODOLOGY ....................................................................................................................2
FINDINGS AND RECOMMENDATIONS................................................................................4
   CHAPTER 1.............................................................................................................................4
   THE FCP COULD BE MORE EFFECTIVE WITH IMPROVED ELIGIBILITY
   CRITERIA AND CONTROLS ...............................................................................................4
   FINDING NO. 1 ........................................................................................................................4
   RECOMMENDATION NO. 1 .................................................................................................8
   FINDING NO. 2 ........................................................................................................................9
   RECOMMENDATION NO. 2 .............................................................................................. 11
   EXHIBIT A – FLOODED FARM LAND NEAR DEVILS LAKE, 1992 - 1998............. 14
   EXHIBIT B – FARM LAND WITHOUT EVIDENCE OF FLOOD-RELATED LOSSES
   ................................................................................................................................................. 17
   EXHIBIT C – COUNTY RANKING BY FCP DISTRIBUTION ..................................... 18
   EXHIBIT D – MAPS OF PUBLICIZED COUNTIES, FUND DISTRIBUTION AND
   COUNTIES REVIEWED..................................................................................................... 21
   EXHIBIT E – FCP APPLICATIONS FOR CLAIMED LOSSES ON LAND WITH NO
   SUPPORTING EVIDENCE OF 1998 FLOODING ......................................................... 22
   EXHIBIT F – COMPILATION OF COMPLIANCE RESULTS ..................................... 23
   EXHIBIT G – PARTICIPATION SUMMARY BY STATE ............................................... 24
   EXHIBIT H – FSA RESPONSE TO THE DRAFT REPORT ........................................ 25



USDA/OIG-A/03099-38-KC                                                                                                                     Page iii
                             INTRODUCTION

                                      The Farm Service Agency (FSA) implemented
       BACKGROUND                     the Flood Compensation Program (FCP) as a
                                      part of the Crop Loss Disaster Assistance
                                      Program (CLDAP) authorized by Title XI of the
         Omnibus Consolidated and Emergency Supplemental Appropriations Act,
         Public Law 105-277 (the Act, October 21, 1998). The objectives of CLDAP
         were to provide producers with disaster assistance for 1998 single-year crop
         losses, multi-year crop losses (1994 through 1998), flooded acreage not
         eligible for crop insurance benefits, and quality losses. Handbook 1-DAP,
         (Amend. 22) states that the FCP was implemented to compensate
         producers for losses on agricultural land that was incapable of production or
         inaccessible because of flooding or excessive moisture from October 1,
         1997, through September 30, 1998.

           The Secretary designated $30 million for the FCP of the $2.375 billion
           authorized by the Act. The Secretary designated an additional $12 million in
           special disaster reserve funds exclusively for livestock producers. As of
           September 28, 1999, the FSA expended a total of $40.9 million in FCP
           funds, including a total of $24.5 million for livestock producers. FCP funds
           were disbursed to producers in five States, North Dakota ($22 million), South
           Dakota ($19 million), Minnesota ($241,000), Iowa ($82,000) and Missouri
           ($9,000). FCP benefits were limited to a maximum of $40,000 per producer,
           and producers with annual gross revenues that exceeded $2.5 million were
           not eligible to participate.

           Title 7 of the Code of Federal Regulations (7 CFR), part 1439, states that the
           FCP was designed to address circumstances where changes in bodies of
           water may produce widespread losses that might not otherwise generate
           assistance under other programs. Land that generated payments or other
           compensation from Federal and State sources was not eligible for the FCP.

                                    Our objectives were to determine if the FSA
        OBJECTIVES                  developed adequate management controls to
                                    implement and administer the FCP, and to
                                    provide FSA program officials with an
         independent assessment of the program.

                                      Our review covered management controls and
            SCOPE                     activities during the implementation of the 1999
                                      FCP. We visited the FSA National office in
                                      Washington, D.C., and the North Dakota and
           South Dakota State offices in Fargo, North Dakota, and in Huron, South
           Dakota, respectively. Our auditors visited 22 of the 100 counties that

USDA/OIG-A/03099-38-KC                                                           Page 1
           participated in the program, including 16 of 39 participating county offices in
           North Dakota and 6 of 50 participating county offices in South Dakota. See
           exhibit D for a map of the counties visited. The 16 North Dakota counties
           reviewed received 31.6 percent of the FCP funds expended in North Dakota
           and the 6 South Dakota counties received about 23 percent of the program
           funds expended in South Dakota.

           Our review included examinations of 108 FCP applications for 64 producers
           in North Dakota and 44 producers in South Dakota. We also reviewed
           documentation submitted by nine county committees to support land used to
           qualify the county for the FCP. We performed our fieldwork from July 13,
           1999, to August 18, 1999. The criteria used to judgmentally select the
           108 producers for review included participating county committee members
           and county office employees, and their immediate families, as well as
           producers who submitted the largest claims for FCP benefits within their
           respective counties.

           FCP was available in 5 States, but 89 of the 100 participating counties were
           located in North Dakota and South Dakota. FSA disbursed almost
           $41 million in FCP funds, 99 percent of which were distributed to producers
           in North Dakota and South Dakota. Nearly $22 million in program funds
           were disbursed to North Dakota producers and almost $19 million to South
           Dakota producers (see exhibit G). The producers reviewed in our audit
           received nearly $862,000 of the FCP funds expended.

           We also evaluated the adequacy of agency controls to verify county and
           producer eligibility for program participation and county office controls to test
           producer compliance with program requirements.

           The audit was conducted in accordance with Government Auditing
           Standards.

                                         To accomplish our objectives, we interviewed
      METHODOLOGY                        FSA national program officials and reviewed
                                         program     documentation        developed or
                                         maintained at the national office.

           At the FSA State offices, we reviewed copies of county committee requests
           to participate in the FCP to identify the counties approved for participation
           and to evaluate the adequacy of supporting documentation submitted with
           county committee requests. We also interviewed key program officials and
           reviewed pertinent documents at the FSA State offices. We judgmentally
           selected the 22 county offices visited; our county office selections were
           based on preliminary indications that the counties anticipated high levels of
           participation, submitted questionable documentation to support county
           eligibility, or likely did not incur long-term flooding.

           We interviewed county office employees and reviewed selected FCP
           applications at the 22 selected county offices. We also reviewed the farm

USDA/OIG-A/03099-38-KC                                                              Page 2
           records and aerial photographs applicable to each FCP application in our
           sample.




USDA/OIG-A/03099-38-KC                                                      Page 3
             FINDINGS AND RECOMMENDATIONS


                     THE FCP COULD BE MORE EFFECTIVE WITH
CHAPTER 1                      IMPROVED ELIGIBILITY CRITERIA AND
                               CONTROLS


      The Flood Compensation Program did not compensate farmers and ranchers for
      long-term losses or ensure that benefits were distributed primarily in areas where
      producers suffered multi-year losses. The agency applied eligibility criteria that
      allowed participation in areas where producers may have experienced losses from
      excessive moisture for only the 1998 crop year. Producers who suffered long-term
      losses were compensated the same as producers who suffered losses during only
      1 year, and producers in the areas publicized by the FSA as in need of the FCP
      received only about 35 percent of the program funds. In addition, more effective
      controls were needed to help ensure that only eligible producers participated in the
      program and that those who did participate were only compensated for actual
      losses. Overall, we questioned whether the FCP had adequate safeguards in place
      to protect the program from waste and abuse.

                                         The FCP was not designed to limit program
      FINDING NO. 1                      funds to producers who suffered multi-year
                                         losses. Given the heavy county office workload
  PROGRAM ASSISTANCE NOT                 and short timeframe for implementation of the
TARGETED TO PRODUCERS WITH FCP, program officials simplified the eligibility
     MULTI-YEAR LOSSES                   and application processes for counties and
                                         producers. We found that the agency applied
         different eligibility criteria to individual producers than it applied to the
         counties where they farmed. Also, the FSA county committees were
         authorized to make eligibility determinations for individual producers on the
         basis of producer certifications, without documentation to support the
         claimed losses. As a result, FCP benefits compensated producers for
         losses sustained only during a 1-year period and were not limited to
         producers who had incurred substantial and recurring losses over the
         designated county eligibility period of 1993 through 1998. We found that
         only about 35 percent of the total program funds disbursed (about $14.5
         million of $40.9 million distributed) were distributed to producers in the areas
         publicized by the agency as having suffered severe and recurring losses due
         to flooding and excessive moisture. These areas included the Red River
         Valley and Devil’s Lake drainage districts in North Dakota and Day County,
         South Dakota (see exhibits C and D).




USDA/OIG-A/03099-38-KC                                                            Page 4
                   FSA applied a two-stage process for determining eligibility for FCP
                   participation. The agency used the first stage to establish county eligibility.
                   Eligible counties were required to have been included in either a Presidential
                   or Secretarial disaster declaration covering “excessive moisture, flooding,
                   or other related incident” during a 1-year period from January 1, 1997,
                   through August 1, 1998. FSA county committees were required to submit
                   evidence that at least one acre of any farm in the county that had been used
                   for agricultural production prior to 1993 and was also incapable of
                   agricultural production due to “continuous flooding”1 for a 6-year period
                   beginning October 1, 1992, and ending September 30, 1998. In effect,
                   counties could easily establish eligibility by finding one acre of flooded land
                   in the county during the 6-year period. The second stage was used to
                   determine the eligibility of individual producers within eligible counties.
                   Farmers and ranchers were required to identify the land where the losses
                   occurred and then submit an application to participate before the county
                   committees could make an eligibility determination.

                   The applications included self-certifications of flood-related or excessive
                   moisture losses that occurred from October 1, 1997, through September 30,
                   1998, and that the claimed acreages were not flooded or subject to
                   excessive moisture during fiscal year (FY) 1992. These certifications were
                   designed, in part, to ease the workload burden on the county offices. We
                   believe that the certification process also encouraged participation by
                   producers in outlying areas where moisture-related losses were common
                   during 1998, but did not recur over all of the 6-year period.

                   On May 19, 1999, the Secretary issued a notice to announce the FCP. The
                   notice stated that the program was intended to provide relief to producers in
                   areas “damaged by long-term flooding” and provided three examples of
                   these areas. The publicized areas included flooded areas in the vicinity of
                   Day County, South Dakota; Devil’s Lake in North Dakota; and the Red River
                   Valley.

                   On August 31, 1999, the interim regulatory rule for the FCP was published.
                   The background section of the interim rule states:

                       “The rule is designed to focus on counties with generalized
                       flooding problems since 1992, due to, for example the
                       expansion of boundaries of natural bodies of water such as
                       Devil’s Lake in North Dakota and Day County and surrounding
                       counties in South Dakota. Such flooding can change the basic
                       character of the land and render it ineligible for other benefits or
                       for enrollment in programs like the Conservation Reserve
                       Program (CRP). Generalized conditions of that sort can produce
                       tertiary effects in the local community and accordingly, problems
                       such as those in Devil’s Lake have been the source of
1
    FSA Handbook 1-DAP Amendment 22 paragraph 601


USDA/OIG-A/03099-38-KC                                                                    Page 5
              considerable attention and concern with respect to the exercise
              of discretionary authorities that may be available to the
              Secretary of Agriculture.”

           Producers in these publicized areas have undoubtedly suffered long term or
           multi-year losses due to flooding or excessive moisture from 1993 through
           1998. However, our analysis of the distribution of FCP benefits showed that
           with all counties in the North Dakota Red River Valley drainage basin
           included, the publicized areas received, only about 35 percent of the total
           program payments disbursed. Our analysis showed that the remaining
           65 percent of the funds were distributed in areas that were not consistent
           with the example provided in the interim rule and described as “the
           expansion of boundaries of natural bodies of water.“ Producers in one of
           the publicized areas, counties adjacent to Devil’s Lake (North Dakota),
           received only about 6 percent of the total program funds. Producers in Day
           County, South Dakota, received only about 3 percent of the total, while
           producers in all 33 counties in the Red River Valley drainage basin
           (17 counties in Minnesota and 16 counties North Dakota) received about
           26 percent of the total. It is important to note that 13 of the 33 counties within
           the Red River Valley drainage basin did not participate in the program. All
           13 of these counties were in Minnesota. Therefore, producers in some
           counties who did not suffer multi-year losses received program funds, while
           producers in other counties (i.e., in Minnesota) who likely suffered multi-year
           losses did not participate in the program.

           Other circumstances also caused us to question program procedures for
           determining eligibility. The Red River Valley was the last of three areas
           noted in the Secretary’s press release and was not mentioned in the interim
           rule. The United States Geological Service’s description of the area states
           that the valley is “nearly level” and is “altered by numerous drainage ditches
           and flood control structures.” The description did not differentiate between
           Minnesota and North Dakota, except to note that the eastern side of the
           valley (Minnesota) generally received more rainfall than the western side. We
           also noted that North Dakota and South Dakota combined to receive over 99
           percent of the total FCP funds distributed, leaving the three remaining
           participating States (Iowa, Minnesota, and Missouri) with a combined total of
           less than 1 percent of all program funds expended, or about $332,000.

           We analyzed the distribution of FCP funds and found that while all of the
           North Dakota and South Dakota counties in the valley participated in the
           FCP, only 3 Minnesota counties in the Red River Valley were determined
           eligible for participation. The Red River drainage basin includes 17 counties
           in Minnesota, 16 counties in North Dakota, and 1 county in South Dakota
           (see exhibit D). To illustrate the differences in participation, producers in
           Richland County, North Dakota, received over $2 million in FCP benefits, the
           highest total amount disbursed in a single county. Richland County is in the
           southeast corner of North Dakota and is bordered by two counties in
           Minnesota (Wilkin and Traverse) and one county in South Dakota (Roberts).
           All four of these counties are located at or near the beginning of the Red

USDA/OIG-A/03099-38-KC                                                               Page 6
           River Valley drainage basin. While Richland County producers received
           over $2 million in FCP benefits and Roberts County producers received
           about $490,000, only producers in Traverse County, Minnesota received
           FCP benefits (about $9,400). Follow-up interviews with Minnesota county
           office personnel disclosed that the county committees found it difficult to
           identify producers who experienced continuous flooding during the
           designated eligibility period. We believe that if this multi-year criterion had
           been applied to all producers individually, rather than on a county basis, the
           distribution of FCP funds would have more likely been limited to participants
           who actually suffered multi-year or long term flood-related losses.

           Producers who only suffered 1998 losses were compensated in the same
           manner as producers who suffered verifiable flood-related losses over the
           entire 6-year designated period. Two cases demonstrate this inequity.
           Producer Y in Ramsey County, North Dakota, suffered long term flood losses
           that are evident on FSA’s annual aerial slide photography (see exhibit A).
           Ramsey County is located within the designated area of Devil’s Lake. The
           aerial photography shows that Producer Y lost additional land to flooding
           each year from 1993 to 1998. However, his claim was limited to 1998 flood-
           related losses on 507.9 acres and his application was approved for $6,493
           in program payments. In contrast, Producer X of Walsh County, North
           Dakota, claimed flood-related losses for 1998 on 195.4 acres of cropland.
           We reviewed the aerial slides for this acreage and found no evidence that
           the land was flooded at any time during the 1993 through 1998 period.
           Producer X needed only to certify that he had incurred losses during 1998
           due to “excessive moisture.” The Walsh County Committee approved this
           producer for $7,576 in FCP funds.

           In addition, Producer Z in Ward County, North Dakota, obtained over
           $20,000 in FCP benefits for 1998 claimed losses on 591.8 acres of
           cropland. There was no evidence that the land was continuously flooded
           during the 6-year period. The county office program technician provided our
           auditor with a signed statement that Producer Z’s land had not been
           subjected to long-term flooding. The absence of multi-year flooding was also
           true for four other producers we reviewed in Ward County. These producers
           received over $11,500 in FCP compensation without supporting evidence of
           multi-year losses (see exhibit B). Ward County is located in the northwest
           corner of North Dakota with a group of counties that generally did not suffer
           long term flooding. The county executive director in an adjoining county also
           stated that his county had not experienced long-term flooding.

           These examples were neither isolated nor unique.                Our review of
           108 applications in North Dakota and South Dakota, disclosed
           20 applications that contained little or no evidence of multi-year flooding (see
           exhibit B). These 20 applicants received over $99,500 of the nearly
           $862,000 total paid to all producers in our sample. Our review showed that
           the producers for 31 of the 108 FCP applications we reviewed also claimed
           1998 losses without providing any evidence of flooding beyond that of the
           producers’ certifications (see exhibit E). Although these numbers and

USDA/OIG-A/03099-38-KC                                                             Page 7
           participation values are not valid for statistical projections, we believe they
           do demonstrate the need for more effective controls over future disaster
           programs like the FCP.

           In summary, we reviewed FCP applications for 108 producers in 22 of the
           100 counties approved for the FCP, including 2 counties in the Devil’s Lake
           area and 5 counties in the Red River Valley (see exhibit D). The results of
           our review showed several applicants did not suffer long-term losses due to
           flooding on significant portions of the land claimed and that there was little or
           no evidence of flooding in 1998 available to support the claims of these
           producers other than their certifications. We found that the publicized areas
           received only about one-third of the total funds expended for the program and
           that some producers with questionable histories of long-term flooding
           actually received more FCP benefits than producers who suffered provable
           losses from flooding during each year from 1993.

                                         Improve the design and implementation of multi-
 RECOMMENDATION NO. 1                    year emergency disaster programs like the
                                         FCP by establishing the following:

              •   Consistent eligibility criteria that quantify the severity and duration of
                  the multi-year losses of affected counties and producers;

              •   program benefit determinations based on the number of years of
                  actual losses for affected producers; and

              •   effective controls to prevent payment of program benefits to
                  producers and counties that did not suffer multi-year disasters.

           FSA Response

           FSA’s written reply did not specifically address this recommendation.
           However, FSA national program officials disagreed with our draft findings
           and recommendations. The agency’s October 24, 2000, reply to our draft
           audit states that the FSP was developed by FSA’s headquarters staff by
           working closely with and receiving input from members of Congress and their
           staffs, FSA State Office personnel, the Risk Management Agency, and
           producers from the States impacted by flooding. The reply also describes
           the difficulty and complexity of developing appropriate regulations, policies,
           and procedures for this program and points out that all parties involved with
           developing the program, including producers, agreed to the final product.
           Finally, the reply states that Congress later authorized $24 million for Flood
           Compensation Program for 2000, and this, along with the general agreement
           by all involved parties, demonstrates “broad based support” for the program
           as implemented. The full text of FSA’s reply is provided in exhibit H.




USDA/OIG-A/03099-38-KC                                                              Page 8
                   OIG Position

                   In its response, FSA believes that FCP was delivered in accordance with the
                   intent of Congress. However, FSA funded FCP out of funds intended for
                   multi-year losses. According to the conference committee notes2, this
                   funding was provided to make available assistance to producers who have
                   incurred multi-year losses in the period to include 1998 and preceding crop
                   years. Therefore, we believe that FSA’s two-step eligibility methodology did
                   not ensure that FCP assistance was effectively and maximally distributed to
                   producers with major multi-year losses regardless of the counties they were
                   located. We tested critical program administration functions and identified
                   areas where recommended improvements could enhance the effectiveness
                   of future flood compensation programs. These areas included the need for
                   improved eligibility criteria for counties and producers, as well as the basis
                   for program benefit determinations for multi-year losses. To reach a
                   management decision on this recommendation, we request that FSA
                   implement our recommendation or provide an alternative corrective action to
                   prevent recurrence of the conditions presented.

                                           FSA did not establish effective controls to help
           FINDING NO. 2                   ensure producers met program eligibility criteria
                                           and complied with program requirements. FSA
     STRONGER CONTROLS ARE                 did not (1) require producers to submit
    NECESSARY TO PROTECT THE               documentation of losses to prevent false and
      INTEGRITY OF MULTI-YEAR              exaggerated loss claims or (2) timely implement
        DISASTER PROGRAMS                  an effective methodology to test producer
                                           compliance with FCP requirements. We also
              noted that field visits and examinations of aerial photography could not
              always establish the validity of claimed losses, because the program was
              implemented about one year after the losses had occurred. Overall, the
              agency relied on producer certifications of loss and the knowledge of local
              county committee members and county office staff to safeguard program
              funds.

                   The U.S. General Accounting Office (GAO) “Standards for Internal
                   Controls in the Federal Government” and Office of Management and
                   Budget (OMB) Circular A-123, “Management Accountability and
                   Control” requires agency managers to use basic management controls to
                   provide reasonable assurance that assets (such as FCP benefits) are
                   safeguarded against waste, loss, unauthorized use, and misappropriation.
                   The controls should be logical, applicable, reasonably complete, and
                   effective and efficient in accomplishing management’s objectives. In this
                   case, management’s objectives mirrored those of the program; i.e., to
                   compensate producers for losses caused by flooding and excessive
                   moisture during a specified period.

2
  Joint Explanatory Statement of the Committee on Conference on H.R. 4328 published in the Congressional Record on October
19, 1998.


USDA/OIG-A/03099-38-KC                                                                                            Page 9
           Producer Applications and Proof of Loss. FSA’s written procedures for the
           FCP placed almost total reliance on producer certifications of loss. We
           noted that all applicants outlined the flooded areas on copies of aerial
           photographs maintained in their farm folders. The producers then estimated
           the number of acres in the affected areas and signed a statement certifying
           the accuracy of the claim. Program requirements did not require producers
           to submit evidence of losses or describe the type and amount of any actual
           losses incurred. For example, producers were not required to disclose their
           actual crop production to validate their claim of crop losses, to provide
           documentation of purchases of replacement feed and hay to maintain
           livestock, or to provide evidence of lost or destroyed livestock.

           County Office Verification. FCP procedures did not require county office
           personnel to verify the accuracy or reliability of the information provided by
           producers with their FCP applications. The producers’ claims of loss were
           accepted as submitted unless county office employees or the county
           committee suspected a claim was incorrect. We identified cases where
           producers claimed land that was ineligible because it was flooded in 1992,
           erroneously estimated the number of acres damaged, or claimed land that
           was entered into the Conservation Reserve Program.

           We noted that one county office in South Dakota voluntarily measured the
           affected acreage submitted with most FCP applications. The county
           executive director stated that both the staff and the producers were unsure of
           how to determine the number of acres affected even when the areas were
           outlined on aerial maps. Producers estimated the number of acres, and the
           county office staff adjusted the claimed acres to match the measured acres
           on the photomaps.

           Many producers claimed losses on land used to produce hay. Without proof
           of loss, our auditors could not verify that an actual loss occurred because
           excessive moisture on the hay land was not usually apparent on the aerial
           photography. One county executive director said that he believed many of
           the noncropland claims were overstated. He described a situation where a
           rancher may have several acres of hay land with only a few acres in low
           spots. The low spots could “drown out” from excessive moisture, while the
           rancher’s overall hay production increased because of the increased
           moisture in other areas of the fields. Without requiring proof of lost
           production from excessive moisture, county office personnel could not detect
           overstated claims.

           Compliance Testing. The FSA National Office issued general procedures
           for compliance requirements on May 31, 1999. The procedures required
           county office staff to select a sample of 15 percent of FCP applications and
           to verify the claimed losses. However, the procedures did not include
           guidance or direction on how county office personnel were to verify the
           losses. We questioned county and State office personnel during our
           fieldwork on how compliance tests were to be accomplished. None of the

USDA/OIG-A/03099-38-KC                                                          Page 10
           State or county personnel we interviewed was aware of the method that was
           to be applied. On August 18, 1999, the North Dakota State Office met with
           district directors and provided them instructions on how county offices were
           to perform FCP compliance spot-checks. This occurred after the program
           was implemented and our audit fieldwork was completed. Neither the FSA
           National Office nor the State offices issued written guidance explaining how
           county office personnel should test compliance on the designated 15 percent
           sample. As a result, the agency lost any potential deterrent to overstated
           loss claims when it did not apply a compliance test methodology during
           implementation of the FCP.

           We examined county office aerial slide photography for claimed areas in the
           FCP applications and noted that flooded areas were often easily identifiable
           and measurable. However, areas with excessive moisture could not be
           identified or verified using the aerial slides because these areas were not
           always distinguishable from unaffected areas. Also, the aerial photographs
           may have been taken before or after any evidence of excessive moisture
           could be detected by viewing the slides.

           The FCP was implemented in the late spring and summer of 1999, at least 7
           months after the end of the disaster period used to calculate program
           benefits. Although many areas with flooded land in or before 1998 remained
           flooded in 1999, other areas with losses due to “excessive moisture” in 1998
           would return to normal conditions without visible evidence of loss. As a
           result, site inspections conducted in 1999 could not effectively be used to
           verify 1998 losses or determine compliance with program requirements.

           Without effective verification or compliance methodologies, our auditors
           could not always confirm the conditions claimed by producers on their FCP
           applications, nor could FSA provide reasonable assurance that FCP funds
           were safeguarded from waste, loss, and abuse.

           We discussed the effectiveness of FSA’s compliance testing with the FSA
           Deputy Administrator for Farm Programs and his staff. The officials
           explained that county office personnel performed compliance tests after we
           had completed our audit fieldwork and noted the procedures used were
           similar to those used for the Livestock Assistance Program. The officials
           also provided us with a summary of the results for the compliance tests
           performed. According to FSA data, the agency conducted compliance tests
           on 3,567 FCP applications in 5 States.              The tests disclosed
           144 discrepancies, which resulted in recovery of over $108,000 (see
           exhibit F).

                                   Develop loss verification and compliance
 RECOMMENDATION NO. 2              testing procedures for future multi-year disaster
                                   programs like the FCP that (1) require
                                   producers to submit a description of their actual
       losses, including evidence of actual losses, such as documented crop
       production histories and receipts, hay purchase receipts, and/or photos of

USDA/OIG-A/03099-38-KC                                                        Page 11
           crop losses; (2) require the county committee to review the documentation
           presented and verify unsupported loss claims before approving the
           producers’ applications; and (3) develop and implement more timely
           compliance tests to reduce the vulnerability of the program and to help
           ensure the objectives of the program are achieved.

           FSA Response

           FSA’s written reply restates the agency’s spot check requirement for the
           FCP and includes a copy of “a compilation of compliance actions conducted
           by the five States that participated in the 1998 FCP.” The compilation
           discloses that 3,567 spot-checks were performed resulting in the
           identification of 144 discrepancies and collection of about $108,000 from
           ineligible producers. The agency contends that the compilation shows that
           compliance procedures were in place and followed. The agency also notes
           that the North Dakota and South Dakota State FSA Offices provided written
           responses to the “OIG draft final report “ concerning their oversight of the
           program and requests that OIG include these responses in the final audit
           report. The reply also states that it is important to note that the regulation
           governing the 1998 FCP was filed on August 30, 1999, and that signup
           ended August 30, 1999, with a 2-week extension for accepting signatures
           and supporting documentation.

           The reply closes by stating that “It is our intent to administer a fair and
           equitable program which does not adversely affect any producer needing
           compensation, nor provide inequitable benefits. As stated earlier the 1998
           FCP has sparked no negative comment or concern from any sector of the
           agricultural community. Therefore, as provided by Congress, it is our
           intention to determine eligibility, provide assistance, and conduct
           compliance under the 2000 FCP, similar to administration of the 1998
           FCP.”



           OIG Position

           FSA’s reply does not respond to the recommendation in the official draft
           report. The reply addresses some issues and points that were not included
           in the official draft report sent to the agency for comment. The agency’s reply
           indicates that program officials believe that a single procedural requirement
           for spot checks, without additional procedures or guidance on how to
           accomplish the spot checks, is sufficient to assure the integrity of the 1998
           FCP and subsequent similar programs. To reinforce this opinion, the
           compilation shows that compliance test results identified 144 discrepancies
           resulting in collections of just over $180,000.

           The two FSA State offices did not provide responses to our “final draft
           report.” The State office comments were directed to our discussion draft
           report. The findings to which these comments were addressed were not

USDA/OIG-A/03099-38-KC                                                          Page 12
           included in the official draft report and thus were not relevant to the findings
           included in the official draft report or the final report. For this reason, we did
           not include the State office comments in the final audit report.

           The agency’s closing comments indicate that FSA plans to conduct
           compliance for the 2000 FCP in a similar manner used to administer the
           1998 FCP and that the agency strongly believes that corrective action on
           recommendation no. 2 is unnecessary. The agency also noted the lack of
           negative comments or concerns from any sector of the agricultural
           community on the 1998 FCP. We believe that programs that rely heavily on
           loss claims supported only by producer certifications are particularly
           vulnerable to fraud and abuse. We continue to believe that future flood
           compensation programs need specific compliance testing procedures
           designed to test producer eligibility and other program requirements.

           To reach a management decision on this recommendation, we request that
           FSA implement our recommendation or provide an alternative corrective
           action to prevent recurrence of the conditions presented.




USDA/OIG-A/03099-38-KC                                                             Page 13
EXHIBIT A – FLOODED FARM LAND NEAR DEVILS LAKE, 1992 - 1998


                                       Ramsey County, North Dakota
                                       248.1 acres
                                       1992 aerial slide from Ramsey
                                       County FSA office




                                       Ramsey County, North Dakota
                                       248.1 acres
                                       1993 aerial slide from Ramsey
                                       County FSA office




                                       Ramsey County, North Dakota
                                       248.1 acres
                                       1994 aerial slide from Ramsey
                                       County FSA office




USDA/OIG-A/03099-38-KC                                   Page 14
                         Ramsey County, North Dakota
                         248.1 acres
                         1995 aerial slide from Ramsey
                         County FSA office




                          Ramsey County, North Dakota
                          248.1 acres
                          1996 aerial slide from Ramsey
                          County FSA office




                          Ramsey County, North Dakota
                          248.1 acres
                          1997 aerial slide from Ramsey
                          County FSA office




USDA/OIG-A/03099-38-KC                      Page 15
                         Ramsey County, North Dakota
                         248.1 acres
                         1998 aerial slide from Ramsey
                         County FSA office.
                         photo appears blank but it is
                         covered in standing water




USDA/OIG-A/03099-38-KC                  Page 16
EXHIBIT B – FARM LAND WITHOUT EVIDENCE OF FLOOD-RELATED
            LOSSES


     Sample #            County         State       Amount
     38-101-1            Ward        North Dakota   $ 276
     38-101-2            Ward        North Dakota        49
     38-101-3            Ward        North Dakota    20,335
     38-101-4            Ward        North Dakota     6,423
     38-101-5            Ward        North Dakota     4,970
     38-061-1            Mountrail   North Dakota     4,596
     38-061-2            Mountrail   North Dakota     1,170
     38-061-3            Mountrail   North Dakota     2,820
     38-061-4            Mountrail   North Dakota       570
     38-105-1            Williams    North Dakota        76
     38-105-2            Williams    North Dakota       115
     38-013-1            Burke       North Dakota    15,682
     38-013-2            Burke       North Dakota     7,496
     38-013-3            Burke       North Dakota     4,040
     38-055-1            McLean      North Dakota       356
     38-055-2            McLean      North Dakota       379
     38-017-1            Cass        North Dakota     5,902
     38-099-3            Walsh       North Dakota     7,576
     38-099-4            Walsh       North Dakota     5,390
     46-003-6            Aurora      South Dakota    11,371


     Total:                                         $99.592




USDA/OIG-A/03099-38-KC                                        Page 17
    EXHIBIT C – COUNTY RANKING BY FCP DISTRIBUTION 3
      State                          County        FCP Distribution   Targeted Area

      North Dakota                   Richland         2,058,249          Red River Valley
      North Dakota                   Cavalier         1,617,361          Red River Valley
      South Dakota                   Brown            1,390,842          None
      South Dakota                      Spink            1,371,739           None
      North Dakota                   Bottineau        1,362,824          None
      South Dakota                      Day              1,320,127           Day County
      South Dakota                      Edmonds          1,292,674           None
      South Dakota                      McPherson        1,167,045           None
      South Dakota                      Clark            1,135,898           None
      North Dakota                   Traill           1,057,590          Red River Valley
      South Dakota                      Hand             1,008,527           None
      North Dakota                   Dickey              1,001,823           None
      North Dakota                   Towner             961,589       Devil’s Lake
      South Dakota                   Beadle             902,691       None
      South Dakota                   Faulk              849,392       None
      North Dakota                   Sargent            834,734       Red River Valley
      North Dakota                   Ransom             825,845       Red River Valley
      North Dakota                   Renville           807,766       None
      North Dakota                   Kidder             801,447       None
      North Dakota                   McIntosh           782,029       None
      North Dakota                   Grand Forks        757,684       Red River Valley
      North Dakota                   Cass               727,797       Red River Valley
      North Dakota                   Lamoure            710,588       None
      North Dakota                   Benson             708,310       Devil’s Lake
      South Dakota                   Aurora             672,207       None
      North Dakota                   Pierce             647,979       None
      North Dakota                   McHenry            641,688       None
      North Dakota                   Stutsman           611,941       None
      North Dakota                   Logan                 573,877       None
      North Dakota                   Steele                555,161       Red River Valley
      South Dakota                      Marshall           512,271       None
      South Dakota                      Charles Mix        502,529       None
      South Dakota                      Roberts            490,596       Red River Valley
      South Dakota                      Sanborn            475,575       None
      South Dakota                      Hamlin             467,094       None




3
    Bold entries denote the locations we visited


USDA/OIG-A/03099-38-KC                                                                Page 18
  State            County     FCP Distribution     Targeted Area

  North Dakota     Rollette        458,906         None
  North Dakota     Ramsey          412,210         Devil’s Lake
  South Dakota        Coddington      387,119         None
  North Dakota     Nelson          384,418         Devil’s Lake
  North Dakota     Barnes          381,181         Red River Valley
  South Dakota        Lake            316,721         None
  South Dakota        Kingsbury       305,163         None
  South Dakota        Sully           299,124         None
  South Dakota        Campbell        298,753         None
  North Dakota     Sheridan        294,410         Red River Valley
  North Dakota     Walsh              281,648         Red River Valley
  South Dakota        Potter          272,854         None
  South Dakota     Union           261,300         None
  North Dakota     Wells           260,103         Red River Valley
  South Dakota        Yankton         246,270         None
  South Dakota     Douglas         243,553         None
  North Dakota     Ward            242,560         None
  South Dakota        Minnehaha       239,712         None
  South Dakota        Miner           220,673         None
  South Dakota        Hyde            211,888         None
  South Dakota        Clay            200,319         None
  South Dakota        Bon Homme       197,193         None
  North Dakota     Griggs             196,429         Red River Valley
  South Dakota        Bruel           162,438         None
  North Dakota     Foster          151,092         Red River Valley
  South Dakota        Brookings          150,096          None
  North Dakota     Emmons          127,630         None
  South Dakota        Grant           127,239         None
  South Dakota        McCook          126,732         None
  North Dakota     Mountrail          122,615         None
  North Dakota     McLean          112,007         None
  South Dakota        Lyman           107,366         None
  South Dakota        Turner          103,948         None
  South Dakota        Davison         102,549         None
  North Dakota     Burke            99,616         None
  Minnesota           Stevens          98,556         Red River Valley
  South Dakota        Jerald           97,242         None
  North Dakota     Burleigh         86,208         None
  South Dakota        Haakon           83,862         None
  South Dakota        Hutchinson       83,758         None
  Iowa             Fremont          81,698         None




USDA/OIG-A/03099-38-KC                                             Page 19
  State            County        FCP Distribution      Targeted Area

  Minnesota           Big Stone            72,668         None
  South Dakota        Hanson               68,841         None
  South Dakota        Jones                68,093         None
  South Dakota        Walworth             61,520         None
  South Dakota        Lincoln              60,782         None
  North Dakota     Eddy                 59,224         Red River Valley
  South Dakota        Pennington           43,722         None
  North Dakota     Williams             31,345         None
  South Dakota        Deuel                31,214         None
  South Dakota        Hughes               30,840         None
  Minnesota           Swift                30,385         None
  South Dakota        Buffalo              28,647         None
  North Dakota     Divide                  17,989         None
  South Dakota        Moody                   15,952         None
  Minnesota           West Otter Tail      15,022         Red River Valley
  Minnesota           Grant                12,058         Red River Valley
  North Dakota     Pembina              10,816         Red River Valley
  Minnesota           Traverse              9,398         Red River Valley
  Missouri         Moniteau              7,518         None
  South Dakota        Jackson               3,326         None
  Minnesota           Kandiyohi             2,456         None
  South Dakota        Stanley               2,158         None
  Missouri         Carroll              1,792          None
  Minnesota           East Otter Tail         300         Red River Valley




USDA/OIG-A/03099-38-KC                                                  Page 20
 EXHIBIT D – MAPS OF PUBLICIZED COUNTIES, FUND DISTRIBUTION
             AND COUNTIES REVIEWED




Note: Maps for funds distributed in Iowa and Missouri are not depicted due to the relatively insignificant funds received by them.




USDA/OIG-A/03099-38-KC                                                                                                 Page 21
EXHIBIT E – FCP APPLICATIONS FOR CLAIMED LOSSES ON LAND
            WITH NO SUPPORTING EVIDENCE OF 1998 FLOODING

                Sample #   County         State

                38-101-1   Ward        North Dakota
                38-101-3   Ward        North Dakota
                38-101-4   Ward        North Dakota
                38-101-5   Ward        North Dakota
                38-061-1   Mountrail   North Dakota
                38-061-2   Mountrail   North Dakota
                38-061-3   Mountrail   North Dakota
                38-061-4   Mountrail   North Dakota
                38-105-1   Williams    North Dakota
                38-105-2   Williams    North Dakota
                38-013-1   Burke       North Dakota
                38-013-2   Burke       North Dakota
                38-013-3   Burke       North Dakota
                38-055-4   McLean      North Dakota
                38-055-5   McLean      North Dakota
                38-071-1   Ramsey      North Dakota
                38-071-3   Ramsey      North Dakota
                38-071-4   Ramsey      North Dakota
                38-071-5   Ramsey      North Dakota
                38-071-6   Ramsey      North Dakota
                38-003-4   Barnes      North Dakota
                38-017-2   Cass        North Dakota
                38-017-3   Cass        North Dakota
                38-017-4   Cass        North Dakota
                38-077-3   Richland    North Dakota
                38-077-4   Richland    North Dakota
                38-099-2   Walsh       North Dakota
                38-099-3   Walsh       North Dakota
                38-099-4   Walsh       North Dakota
                38-063-1   Nelson      North Dakota
                46-003-6   Aurora      South Dakota




USDA/OIG-A/03099-38-KC                                Page 22
EXHIBIT F – COMPILATION OF COMPLIANCE RESULTS



                               No. of         No. of                         Payments
               No. of       Applications      Spot-           No. of         Refunded
  State      Applications   Selected for     checks       Discrepancies     as Result of
              Approved      Spot-check      Completed         Noted            Spot-
                                                                              checks

Iowa              56              8              8               1            $2,430

Minnesota        158              78             78              0               0

Missouri           9              9              9               0               0

No. Dakota      10,951          1,855          1,855            83            $97,564

So. Dakota       9,482          1,609          1,617            60            $8,148

 Totals         20,656          3,559          3,567            144          $108,142


  Source: FSA. “As noted in the above table, compliance procedure was in place and
               followed, and s were conducted in a manner consistent with procedure
               used for the Livestock Assistance Program. Also, more than
               $108,000 was collected from ineligible producers, as a result of these
               s.”




USDA/OIG-A/03099-38-KC                                                      Page 23
EXHIBIT G – PARTICIPATION SUMMARY BY STATE




                    No. of                 No. of            FCP Amount
                    Counties             Participants         Disbursed

    Iowa                 1 (1%)               84   (0.4%)        $81, 698
(0.2%)
    Minnesota            8 (8%)              228   (1.0%)        240,841
(0.6%)
    Missouri             2 (2%)               11 (0.005%)           9,310
(0.002%)
    North Dakota     39 (39%)          12,235 (53.9%)       21,776,691 (53.2%)
    South Dakota     50 (50%)          10,140 (44.7%)       18,820,173 (46.0%)

    Grand Totals:         100 (100%)      22,698 (100%)       $40,928,713
(100%)




USDA/OIG-A/03099-38-KC                                                 Page 24
EXHIBIT H – FSA RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/03099-38-KC                         Page 25
USDA/OIG-A/03099-38-KC   Page 26
USDA/OIG-A/03099-38-KC   Page 27
USDA/OIG-A/03099-38-KC   Page 28
USDA/OIG-A/03099-38-KC   Page 29
